WAIVER
SUPREME COURT OF THE UNITED STATES
Supreme Court Case No.

19-1007

Zaid Abdul-Aziz

National Basketball Association Players Pension Plan
V.

(Respondent)

(Petitioner)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
Please enter my appearance as Counsel of Record for all respondents.
El There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

[1] I am a member of the Bar of the Supreme Court of the United States.
El I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed b
Bar member.
Signature

February 21, 2020

Date:

(Type or print)Name

John Edward Roberts
El Mr.

Firm

E] Ms.

Mrs.

El Miss

Proskauer Rose LLP

Address

One I nternational Place

City & State

Boston, MA

(617)526-9813

Phone

zip 021 10
jroberts©proskauer.com
Email

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

CC: Jason L. Melancon

